            Smithsonian Institution
            Office of the Inspector General

                                         Collections Stewardship of the National Collections at
In Brief                                 the National Museum of American History –
                                         Preservation and Physical Security
                                         Report Number A-10-03-2, September 30, 2011
                                                                                                                      

Why We Did This Audit                    What We Found
This report continues our series of      NMAH dedicates its collections and scholarship to inspiring a broader
collection stewardship audits at the     understanding of our nation and its many peoples. The museum holds in
Smithsonian, and is the second of
two reports on the collections at the
                                         trust approximately 3.2 million objects that encompass all aspects of the
National Museum of American              history of the United States.
History (NMAH). Our overall
audit objectives were to determine       Many of NMAH’s collections were stored in substandard conditions.
whether (1) physical security is         The majority of storage areas we tested were not conducive to the long-
adequate to safeguard the                term preservation of the collections. NMAH storage equipment as well as
collections, (2) inventory controls      object housing and housing practices need improvement. For example,
are in place and working adequately      nearly all storage rooms at the museum had exposed pipes and conduits,
to ensure that the collections are       resulting in frequent leaks that threaten collection items. Some storage
properly accounted for, and (3)          buildings are contaminated with asbestos or lead-containing dust.
collections are properly preserved at    Overcrowding in storage rooms and cabinets has damaged objects.
NMAH. This report covers the first
and third objectives. A previous
report covered the second objective      Although NMAH has successfully used internal Smithsonian funding to
(A-10-03-1).                             improve conditions for certain discrete collections, it does not have a
                                         comprehensive preservation program to mitigate the deterioration of
What We Recommended                      objects so that they are available for exhibitions, education, and research
                                         purposes.
We recommended that the
Smithsonian develop a prioritized        NMAH’s physical security is generally adequate to safeguard the
plan for addressing collections          collections. However, collections storage areas do not yet comply with
storage needs; establish and             the Office of Protection Services’ (OPS) security standards. OPS had not
implement a Preservation Program;
explore opportunities to maximize
                                         installed required security devices in all of these areas. Furthermore, both
storage space, replace substandard       OPS and NMAH need to improve controls over access to collections
storage equipment and acquire            storage areas. For example, OPS security officers issued keys to staff and
appropriate housing materials for        volunteers who lacked proper authorization to access certain collections
the collections; and develop and         storage areas. NMAH staff routinely stored keys in unsecured boxes or
implement a plan to remove and           drawers and did not maintain permanent sign-out logs. These
decontaminate objects from storage       conditions increase the risk of theft and diminish control over
facilities containing hazardous          collections.
materials. We also recommended
that the Smithsonian implement           In 2010 the Institution created a pan-Institutional Collections Space
security policies and procedures to      Steering Committee (CSSC) focused on ensuring that collections are
improve security controls, and
develop and implement a
                                         preserved and remain accessible for current and future generations. We
prioritized plan to bring NMAH           continue to hope that the Institution’s Strategic Plan objective to
collections storage areas into           strengthen collections stewardship results in increased attention to and
compliance with OPS’ Security            support for collections management.
Design Criteria.

Management generally concurred
with our findings and
recommendations and has planned
corrective actions that resolve all of    For additional information or a copy of the full report, contact the Office of
our recommendations.                      the Inspector General at (202) 633-7050 or visit http://www.si.edu/oig
          Smithsonian Institution

          Office of the Inspector General



  Date     September 30, 2011

    To     Marc Pachter, Acting Director, National Museum of American History (NMAH) 

           Richard Kurin, Under Secretary for History, Art, and Culture 

           Albert Horvath, Under Secretary for Finance and Administration and 

              Chief Financial Officer 

           Scott Miller, Deputy Under Secretary for Collections and Interdisciplinary Support 

           Bruce Kendall, Director, Office of Facilities Engineering and Operations 

           William T. Lynch, Director, Office of Protection Services (OPS) 

     cc    David K. Allison, Associate Director, Office of Curatorial Affairs, NMAH 

           Karen Garlick, Assistant Director, Collections Management Services, NMAH 

           William G. Tompkins, National Collections Coordinator, National 

              Collections Program 

           Douglas Hall, Associate Director, Physical Security and Risk Management, OPS 

           Peter Mroczkiewicz, Deputy Director, Operations, Office of Protection Services 


 From     t s~~~spector                     General        .

Subject    Audit of Collections Stewardship of the National Collections at the National Museum of
           American History - Preservation and Physical Security, Number A-10-03-2

           The Office of the Inspector General (OIG) initiated this audit to examine collections
           stewardship at the National Museum of American History (NMAH), which is essential
           for safeguarding the collections for public and scholarly use and reducing the risk ofloss
           or theft. This report presents the results of our audit of the preservation and physical
           security of the collections. It is the second of two reports covering stewardship of the
           national collections at NMAH. We issued the first report covering inventory controls
           on February 8,2011. Earlier audits covered the National Museum of Natural History
           (A-05-06, September 29, 2006); the National Air and Space Museum (A-09-04, March
           17,2010); and the Cooper-Hewitt, National Design Museum (A-11-02, September 12,
           2011).

           Collections are at the core of the Smithsonian. The Smithsonian Strategic Plan for fiscal
           years 2010-2015 states:

                  The collections are fundamental to our work and to that of countless 

                  scholars and many federal agencies; it is our responsibility to preserve 

                  them for future generations. To ensure they remain available, we will 

                  improve collections storage and management, substantially expand 

                  access to collections through digital technologies, and build 

                  public/private partnerships that strategically enhance collections care. 


           The collections drive the mission and the work of the Smithsonian. Failure to
           adequately secure and care for the collections affects the Institution's ability to fulfill its
           mission as well as its credibility with the American public and donors.

          MRC524
          PO Box 37012
          Washington DC 20013-7012
          202.633.7050 Telephone
          202.633.7079 Fax
Our objectives in the overall audit were to assess (1) whether physical security is adequate to
safeguard the collections, (2) whether inventory controls are in place and working adequately to
ensure that the collections are properly accounted for, and (3) whether collections are properly
preserved in compliance with Smithsonian and museum collections management policies and
procedures. This report covers the first and third objectives. We describe our audit scope and
methodology in detail in Appendix A.

RESULTS IN BRIEF
We found that many of NMAH’s collections were stored in substandard conditions. Of the 29
NMAH storage rooms and buildings we tested, we found that the majority were not conducive to
the long-term preservation of the collections. NMAH storage equipment, objects’ housing and
housing practices, and overall storage facilities need improvement. For example, nearly all storage
rooms at the museum had exposed pipes and conduits, resulting in frequent leaks that threaten
collection items. Some storage buildings are contaminated with asbestos or lead-containing dust.
Over-crowding in storage rooms and cabinets has damaged objects.

Although NMAH has used internal Smithsonian funding to improve conditions for certain
collections, we found that NMAH did not have a comprehensive preservation program to
mitigate the deterioration of objects. We believe that as stewards of the nation’s most valued and
treasured collections, the Smithsonian should lead the museum community in collections care.

We believe that NMAH’s physical security is generally adequate to safeguard the collections;
however, improvements are needed to bring collections storage areas up to the Office of
Protection Services (OPS) security standards. We tested 220 security devices installed in 19
rooms at NMAH and at 6 offsite storage areas and we found that these devices were working
properly. However, we also determined that the Smithsonian had not installed required security
devices in all of NMAH’s storage areas. Furthermore, both OPS and NMAH need to improve
security controls over access to collections storage areas. OPS security officers issued keys to staff
and volunteers who lacked proper authorization to access certain collections storage areas.
NMAH staff routinely stored keys in unsecured boxes or drawers and did not maintain
permanent sign-out logs. These conditions increase the risk of theft and diminish control over
collections.

As reported in our previous collections stewardship audits, the lack of security devices in
Smithsonian collections storage areas remains a concern. At NMAH, it is of even greater concern
considering the size of the collections, number of collections storage rooms and buildings, and
the physical condition of these buildings and facilities. Although OPS has planned extensive
security upgrade projects, like most Smithsonian organizations, it must compete for scarce
resources. There is no assurance that Congress will approve funding for these projects. Based on
our current and previous audits, we hope that Smithsonian management will advance its strategic
objective of strengthening collections stewardship by continuing to press for funding to address
the ongoing need for improved collections security across the Institution.

As noted in Concern at the Core: Managing Smithsonian Collections (April 2005), the Office of
Policy and Analysis’ (OP&A) comprehensive study of collections management at the Institution,
collections are increasingly at risk because of declining resources to perform basic collections
management, such as preservation and collections care. The report specifically noted the
deteriorating conditions of NMAH collections storage facilities, as well as the shifting of
resources away from collections care. Six years have passed since OP&A issued the report, and it
was only in 2010 that the Institution created a pan-Institutional Collections Space Steering

                                                   2

Committee (CSSC) focused on ensuring that collections are preserved and remain accessible for
current and future generations. As this Committee works towards accomplishing its goals, we
hope that the Institution improves the state of preservation care at NMAH.

To ensure that collections are properly preserved in compliance with Smithsonian and museum
collections management policies and procedures, we recommended that the Smithsonian develop
a prioritized plan for addressing collections storage needs Institution-wide. We recommended
that the Smithsonian establish and implement a Preservation Program and explore opportunities
to maximize storage space, replace substandard storage equipment and acquire appropriate
housing materials for the NMAH collections. We also recommended that NMAH and the Office
of Facilities Engineering and Operations (OFEO) develop and implement a plan to remove and
decontaminate objects from storage facilities containing hazardous materials. To ensure that
physical security controls over access to the NMAH collections storage areas are adequate, we
recommended that the Smithsonian implement security policies and procedures to improve
security controls. Lastly, we recommended that the Smithsonian develop and implement a
prioritized plan to bring NMAH collections storage areas into compliance with OPS’ Security
Design Criteria.

We acknowledge that the resources needed to implement the recommendations contained in this
report, and in our prior report on inventory controls at NMAH, are considerable. We believe
that the recommendations from both reports are interconnected and equally important for
strengthening collection stewardship. Therefore, we expect the Institution to provide integrated
and comprehensive plans for improving the inventory, preservation, and security controls over
the NMAH collections.


BACKGROUND
The National Museum of American History opened to the public in January 1964 as the Museum
of History and Technology. In 1980 the Smithsonian changed the museum’s name to the
National Museum of American History. The museum holds in trust approximately 3.2 million
objects1 that encompass all aspects of the history of the United States. A wide variety of these
artifacts, approximately 5,000, are on display at the museum. The remaining collections are
stored at NMAH on the Mall, the Smithsonian Institution Services Center (Pennsy Drive) in
Landover, MD, and the Museum Support Center (MSC) and the Paul E. Garber Facility in
Suitland, MD.

NMAH is one of the Smithsonian’s more popular museums, with approximately 4 million
visitors in 2010. The museum has recently completed a two-year, $85 million renovation of the
building’s center core. Major highlights of the renovation were the construction of a new Star-
Spangled Banner gallery, expanded public space, and improvements to the 44-year-old building’s
infrastructure. The museum will be renovating the West Wing public spaces in the next phase of
the project, starting in the fall of 2011. During these renovations, some closed exhibit galleries
have been converted to temporary collections storage areas to hold thousands of collection
objects.

At NMAH, care of the collections is the responsibility of the Office of Curatorial Affairs (OCA)
staff. OCA comprises the following departments: Department of History, Department of
Affiliations, Department of Collections Management Services, and the Collections Support
1
 Approximately 1.4 million objects are managed by the NMAH Archives. We excluded Archives objects from the
scope of this audit.

                                                      3

Office. Our audit focused on two of these departments: Collections Management Services (CMS)
and the Department of History. CMS supports the accountability, preservation, and accessibility
of the collections in line with the museum’s mission. CMS comprises the following departments:
Preservation Services, Offsite Storage, Registration Services, and Collections Documentation
Services (CDS). At the time we conducted our audit there were seven divisions within the
Department of History: Music, Sports, & Entertainment; Military History & Diplomacy;
Medicine & Science; Home & Community Life; Politics & Reform; Work & Industry; and
Information Technology & Communications.2 These divisions are responsible for developing
exhibitions, public programming, and research based on their collections.

NMAH Collections Storage Areas

Mall Museum - There are over 70 permanent and temporary locations in the NMAH Mall
museum where NMAH routinely stores objects. The building has 6 floors, three of which are
mainly public and exhibit spaces. The collections storage rooms are primarily located in the
basement and the fourth and fifth floors.

OPS and NMAH have identified three high-risk storage areas, which contain the National
Numismatic Collection and Military History’s Weapons Collection. The National Numismatic
Collection is stored in a 4,500-square foot vault room and holds over 860,000 objects, including
valuable coins, paper money, medals, decorations, and tokens. The Weapons Collection is stored
in two storage locations. A 1,300 square foot room on one floor contains approximately 12,000
firearms and swords. A smaller room on another floor contains ordnance such as ammunition,
artillery shells, and heavy weaponry.

Garber Facility - The Paul E. Garber Facility is made up of 31 metal buildings, some of which
date from the 1950s. NMAH stores objects in seven of these buildings, which represent
approximately 109,000 square feet of storage space. In addition, NMAH uses approximately
12,500 square feet of outdoor space to store objects. The Garber facility houses a variety of objects
from rare and antique race cars to large industrial machinery to small hand tools.

Smithsonian Institution Services Center – NMAH occupies over 101,000 square feet of storage
space at the Pennsy Drive facility. The NMAH storage space contains mostly crated and large
objects such as agricultural equipment.

Museum Support Center – NMAH occupies a 25,000 square foot “Pod” at MSC, a multi-
purpose facility built in 1983. Smaller objects are stored in metal cabinets and represent a cross
section of the museum’s collections. The MSC facility contains a wide variety of objects such as
World’s Fair memorabilia, antique cameras, and medical tools and supplies.

NMAH Preservation Services

NMAH’s Preservation Services is a unit under Collections Management Services in the Office of
Curatorial Affairs. Preservation Services supports long-term collections preservation and access
by managing programs in conservation treatment, documentation, and research; providing

2
 Effective February 2010 (after we began this audit), NMAH reorganized the Department of History and eliminated
the Information Technology and Communications Division. NMAH transferred objects and staff to the remaining
divisions. The Department of History also renamed several of the remaining divisions: Military History and
Diplomacy is now Armed Forces History; Music, Sports and Entertainment is now Culture and the Arts; and Politics
and Reform is now Political History.


                                                       4

preservation training and guidance on collections care; partnering with OFEO to monitor
environmental conditions; and managing collections disaster response. There are currently five
full-time staff members in the unit. There are three conservation labs located in the basement of
the museum building.

Smithsonian Collections Care Initiatives

In fiscal year (FY) 2010, the Smithsonian established the CSSC, whose objectives are to ensure
collections are properly housed and accessible; support best practice cost efficiencies and space
utilization; promote shared solutions to address common needs; and develop a strategic,
integrated approach to addressing collecting units’ storage requirements. The Committee has
begun to develop both long- and short-term plans for resolving storage problems. We hope that
this endeavor will result in the implementation of a cohesive space plan that demonstrates a
commitment to improving storage conditions across the Institution.

Earlier, in FY 2006, the Smithsonian established the Collections Care and Preservation Fund
(CCPF), an annual federal appropriation, to finance projects that address critical needs in
collections care and preservation. Funding is available to eligible units on a competitive basis.
CCPF awards are given for projects based on their strategic value, innovation, and organizational
excellence.

Smithsonian Collections Management Policy and Implementation Manual

SD 600, Collections Management Policy, states that preservation is the protection and stabilization
of collections, as well as their associated information, through a coordinated set of activities
aimed at minimizing chemical, physical, and biological deterioration and damage and preventing
loss of intellectual, aesthetic, and monetary value. Preservation is an ongoing process with the
goal of making collections available for current and future use.

The SD 600 Implementation Manual requires each collecting unit to establish minimum
standards of physical care and routine schedules for maintenance specific to the nature, purpose,
and use of its collections. Collecting units must also establish priorities for the management and
preservation of their collections as a whole, in addition to setting priorities for individual
collection items.

The SD 600 Implementation Manual also requires that each collecting unit have a Preservation
Program that establishes policies, procedures, and guidelines regarding preservation assessments,
preservation imaging, preparation and processing, environmental control, collection disaster
preparedness and response, collections maintenance, housing, storage, preservation
documentation, conservation treatment, and preservation education and training.

In June 2011, OPS amended the Manual to include a new chapter titled Collection Space Security
Standards. The purpose of these standards is to identify minimum procedural and physical
security requirements for those areas where collections are stored or exhibited. These standards
should be used in conjunction with other collections related policies such as the Security Design
Criteria.

NMAH Collections Management Policy

NMAH’s Collections Management Policy (CMP) directs the museum’s Collections Program.
This program includes planning, acquiring, researching, and providing for the preservation,

                                                 5

proper use, control, and documentation of the museum’s objects. The CMP defines preservation
as the ongoing process for the protection and stabilization of collections, as well as their
associated information, through a coordinated set of activities aimed at minimizing chemical,
physical, and biological deterioration and damage, as well as, preventing the loss of intellectual,
aesthetic, and monetary value. Preservation includes environmental control, conservation
treatment, and collections maintenance. The goal of preservation is to make the collections
available for current and future use.

The CMP states that objects must be properly supported and housed at all times using the best
techniques and materials available. According to the CMP, preservation priorities are
determined by established guidelines, museum program priorities, and periodic reviews of the
collections.

The CMP also establishes that NMAH, in coordination with OPS, is responsible for providing
adequate security and access control over its collections storage areas that are appropriate for the
nature of the objects. The CMP also states that the collections must be routinely monitored for
damage and loss. Access to the collections must be balanced with both preservation and security
needs.

NMAH Security

The Office of Protection Services, a branch of the Office of Facilities Engineering and Operations,
is responsible for the security of staff, visitors, and collections Institution-wide. OPS provides
protection and security services and operates programs for security management and some
criminal investigations at Smithsonian facilities on and near the National Mall in Washington,
DC, New York City, and Panama. Each building or compound has a Security Manager who is in
charge of overseeing security for that location. The Security Manager reports to the Area Security
Manager, who is responsible for overseeing multiple facilities in a geographic area.

The Technical Security Division (TSD) of OPS provides technical assistance and advisory services
to Smithsonian museums, offices, and facilities, as well as maintains and repairs all technical
security equipment, such as door access-card readers, cameras, and motion detectors, throughout
the Institution. TSD also provides security design and construction support. The System
Administration Section of TSD coordinates the repair of system or device failures, preventative
maintenance, maintenance contracts, system inspections, and system changes (due to
construction or exhibits). The Security Engineering Support (SES) section of TSD is responsible
for coordinating and managing the design and installation of security or security-related projects.
SES reviews Smithsonian design and construction projects to ensure that they comply with OPS
design criteria, standards, programs, policies, and procedures. Another component of TSD is the
Locksmith Shop, which provides all lock and key services to facilities and OPS Security Units and
Divisions throughout the Smithsonian.

Process for Improving Security

The Smithsonian’s Capital Planning Board, with input from Smithsonian’s senior leaders,
decides which security upgrades it will fund in the course of the annual capital planning process.
The Board identifies and prioritizes capital projects, some of which may include major security
upgrades to Smithsonian buildings. OPS’ Technical Security Division specifies security
requirements for these projects based on its security assessments. According to OPS, TSD rarely
requests security projects that are not part of a larger capital project unless there is a compelling
need, because of the inefficiency of managing many smaller security projects.

                                                  6

The Office of Planning and Project Management (OPPM), in conjunction with other OFEO
components, is responsible for ensuring that construction contractors properly install devices
that meet OPS security specifications.


RESULTS OF AUDIT
Storage Conditions are Inadequate for Long-Term Preservation

NMAH has not maintained adequate preservation conditions for its collections in storage
facilities on the Mall and at offsite locations. We surveyed 29 storage rooms and buildings and
determined that the majority are not conducive to the preservation of the collections. In general,
we found that storage equipment, objects’ housing and housing practices, and overall storage
facilities were substandard and in need of improvement. We include our testing results in
Appendix C.

OPS’ Security Design Criteria state that collections storage rooms should be free of mechanical
and plumbing systems, since they pose a risk of water damage to the objects. This criterion is also
included in the Collection Space Security Standards document that will be added to the SD 600
Implementation Manual.

The Smithsonian’s Museum Conservation Institute (MCI) has established written environmental
standards for maintaining temperature and humidity control in museum buildings that house
collections, and OFEO has adopted these standards. In addition, MCI recommends that
collections requiring tighter controls should be maintained within a controlled micro-climate,
such as a cold storage room.

NMAH has not established minimum written preservation standards specific to the nature,
purpose, and use of its collections, as required by the SD 600 Implementation Manual. For
example, NMAH has not developed preservation standards that address collections maintenance,
housing, and storage; collections disaster preparedness and response; and preservation education
and training.

Storage Equipment Deteriorating or Containing Hazardous Materials

We found that the older storage
equipment used in most storage
areas contained potentially damaging
or hazardous materials such as
untreated wood, lead paint, arsenic-
coated felt, and
paradichlorobenzene.3 NMAH
conservation staff explained that
objects stored in untreated wood
cabinets were subject to off-gassing,
which can damage metal objects after
prolonged exposure. We observed                Rubber gaskets on a cabinet storing barometers and other items from
that metal glass-front cabinets were           the Medicine & Science Division has deteriorated and liquefied, risking
                                               damage to objects.

3
 Paradichlorobenzene is the chemical that is commonly used in mothballs. It has a strong odor and can crystallize
on collection objects and pose health risks to the staff.

                                                         7

used extensively to store objects throughout all storage locations. NMAH preservation staff
explained that the rubber gaskets on many of these cabinets were deteriorating and liquefying.
The liquefied rubber could cause damage to the objects. We observed evidence of this problem
in several storage cabinets, including a cabinet containing barometers in the Medicine & Science
Division (see image on previous page).

                                            Also within this Medicine & Science Division cabinet, we
                                            observed a barometer that was leaking mercury, a hazardous
                                            substance. The staff placed a glass container in a plastic bag
                                            underneath the leak to catch the mercury. This is especially
                                            dangerous because mercury vapors accumulating within the
                                            sealed cabinet could pose health risks to exposed staff.

                                            We observed cabinets that could not close properly and
                                            others that were often difficult to open, especially with
                                            wooden drawers that swell with humidity. Drawers that are
                                            difficult to open could damage objects as staff attempt to pull
                                            the drawer out.

                                            Poor Facilities Control

                                       Nearly all of the collections storage rooms at the museum had
                                       exposed pipes and conduits, resulting in frequent leaks in
                                       many rooms. We observed several rooms in various divisions
                                       with active water leaks where the water was being collected in
                                       buckets in the middle of aisles. Because of the likelihood of
 Mercury leaks from a barometer into a
 beaker, posing health risks to staff.
                                       leaks, almost every division occupied a storage room where
                                       shelving and objects were covered in plastic sheeting.
Unfortunately, plastic sheeting may result in the creation of micro-environments where it is
warmer or more humid under the plastic than the rest of the room, which may cause the growth
of mold and mildew on objects.




 Several water buckets in a Work & Industry storage room         Plastic draped over storage equipment and buckets in the
 are collecting water leaking from steam conduits running        aisle show evidence of frequent and ongoing water leaks
 through the room.                                               from the HVAC system in a Music, Sports, and
                                                                 Entertainment Division storage room.




                                                            8

In addition, we found that the museum has had a history of problems maintaining proper
environmental conditions within the Cold Storage Room, where the refrigeration equipment has
exceeded its useful life. The humidity level is difficult to maintain and fluctuates depending on
the weather.4 OFEO has only performed patchwork repairs as the equipment has failed. These
failures have caused severe water leaks in the room, which contains fur coats and other clothing
items from the Division of Home & Community Life’s costume collection, resulting in damage to
some of the objects as well as to storage equipment. The division is currently using temporary
equipment until a permanent replacement can be purchased.




    Catastrophic failures of the HVAC system in Home & Community Life’s Cold Storage Room have resulted in severe leaks,
    damaging both objects and the storage equipment in the room. The system has exceeded its useful life and needs to be
    replaced. Stable environmental conditions can no longer be maintained in the room.

Approximately 400,000 objects stored at the offsite Garber facility are especially at risk of damage
because these buildings have exceeded their intended useful lives. These storage buildings were
supposed to be temporary structures. Buildings 15-19 and 28 were built between 1950 and 1960,
while Building 31 was built more recently, in 1994. A “Structural Vulnerability Assessment”
done at the Garber Facility in 2010 found that 5 of 7 buildings occupied by NMAH are “not
considered adequate for anticipated snow/wind.” With the collapse of NASM storage Building
21 in February 2010 from snow and wind, this finding is especially concerning.




                                                                         After the 2010 collapse of a NASM storage
                                                                         building at the Garber Facility, OFEO
                                                                         conducted an assessment on the remaining
                                                                         storage facilities at Garber. The Institution
                                                                         determined that many of the buildings, several
                                                                         of which store NMAH collections, were not
                                                                         capable of withstanding significant snow and
                                                                         wind. These buildings were meant to be
                                                                         temporary structures and have exceeded their
                                                                         intended useful lives.




4
 The standard humidity level is 30-40%; however, during a visit when it was raining, we observed the humidity to be
69%.

                                                              9
At Garber, we also observed approximately 12,500 square feet of outdoor space filled with
collection objects. These objects were sitting on the ground, exposed to the elements, and have
been for many years. As a result, the objects were in various stages of deterioration.




    NMAH collection objects occupy 12,500 square feet of outdoor “storage space” at the Garber Facility. The objects have
    been left exposed to the elements for many years and are in various stages of deterioration. According to the museum, the
    objects are part of several NMAH collections: military history, manufacturing, maritime, transportation, and agriculture.

Storage Buildings Contaminated with Asbestos or Lead-Containing Dust

At the Garber Facility, there were four buildings that contained asbestos. In June 1998 the
Institution completed the decontamination of Building 17. However, three buildings (15, 16,
and 18) have fragile asbestos containments that are failing, and Building 16 contains collections
that are contaminated with asbestos. Further, Buildings 15 and 18 are contaminated with lead-
containing dust.5 As a result, these three buildings and the objects stored within them are
inaccessible except by staff members trained to wear the appropriate protective gear. These
buildings have exceeded their useful life and pose an environmental risk to the staff and the
surrounding community. We also found one collection storage room in the Mall museum
basement contaminated with lead dust. Because of the contamination, these objects are not
available for use unless they are decontaminated. According to CMS, the decontamination
process is expensive and may damage the objects.


                                         Asbestos and lead-containing
                                         dust contamination make
                                         three of NMAH’s seven storage
                                         buildings at the Garber Facility
                                         inaccessible without special
                                         protective gear. These
                                         buildings contain
                                         approximately 400,000 objects
                                         that are currently unavailable
                                         for use.




5
 Garber Buildings 15 and 18 house many objects that contain lead, which results in lead-containing dust in the
buildings.

                                                                10
Objects Inappropriately Housed and Poor
Housing Practices

Our testing found that housing and housing
practices were not ideal for the preservation of
many of the objects in NMAH storage
facilities. We often observed objects stored
loose in drawers or boxes without proper
support or padding. As a result, the objects
would roll or slide around whenever the
drawer or box was moved, increasing the risk
of objects hitting each other and causing
damage. With objects such as coins and
medals that have raised surfaces, repeated
sliding against hard surfaces, such as the              Dozens of sharp whaling harpoons hang along a wall of a
bottom of a box, could wear down the details            narrow aisle in this Work & Industry Division storage area.
on the object, significantly decreasing its
historical and intrinsic value.

NMAH also hung objects on walls or stored
them on open racking, putting them at risk of
falling and being damaged. For example, the
curatorial staff hung a collection of whaling
harpoons on a wall in a narrow aisle within a
collection storage room. These sharp and
dangerous objects could easily be bumped into
and fall, not only risking damage to the object
but to staff as well. A similar situation exists in
the Military History sword collection, another
collection of potentially dangerous objects.
The curatorial staff stored the collection on
open racking, with the handles hanging off the          Thousands of unsecured swords are stored on open shelves
                                                        in this Military History & Diplomacy Division storage room.
shelf. The swords are not secured to the                The swords hang off the edge of the shelves.
shelving and could easily be knocked off, again
risking damage to the objects and staff.
NMAH should store both of these collections
in cabinets appropriate for their preservation
and security.

Many storage rooms were overcrowded to the
point that objects are at risk of damage or have
already been damaged. For example, a
Military History Division cabinet containing
World War I-era United States flags was so full
that flags were scraping against the drawer
above it every time the drawer was opened. In
addition, these objects remain stored in
original housing materials, which are                   This World War I-era United States flag in the Military
inappropriate for long-term preservation of             History & Diplomacy Division’s collection has been
                                                        irreparably damaged due to substandard storage practices
the objects. These storage conditions resulted          and housing materials. There are several flags stored
in irreparable damage to the flags.                     similarly within this storage room.


                                                      11

Overcrowded storage rooms have also resulted in objects being stored on the floor or on top of
cabinets, where they are exposed to excessive light, dust, water, and other hazards. Objects stored
on top of cabinets also pose safety risks to staff and may be damaged if they were to fall. In the
ceramics and glass storage rooms, staff stored heavy, fragile objects in this manner.




                                                           This storage room for a collection of ceramic
                                                           pottery from the Home & Community Life
                                                           Division is overcrowded. As a result, fragile and
                                                           heavy objects have been placed on top of tall
                                                           cabinets. In addition to the risk of falling and
                                                           breaking and injuring staff, they are exposed to
                                                           excessive light, dust, and potential water leaks.




Overcrowded and poorly lit storage facilities also posed accessibility issues. We observed
numerous storage locations on the Mall and offsite where narrow aisles, cabinets blocking other
cabinets, and high shelving made it very difficult and in some cases dangerous to access objects.
Objects stored under these conditions are not available for preservation assessments and are not
likely to be used for exhibits or research purposes. Poor or nonexistent lighting in several storage
rooms and buildings not only made it difficult to identify and access objects, but also posed a
safety hazard.

                                              * * * *

NMAH is unable to maintain standard and appropriate storage conditions for its collections
because:

	 According to Smithsonian management, many of the current storage conditions are the result
   of past preservation standards and practices that are no longer suitable or appropriate for the
   NMAH collections. However, collections storage conditions have also deteriorated because
   the museum has not fully funded many aspects of collections preservation such as the
   establishment of a collection maintenance program. Moreover, the Museum no longer has
   the resources for basic preservation training of OCA staff on a regular basis. In addition, the
   curatorial divisions lacked funding to replace aging and substandard equipment and purchase
   appropriate housing materials. On a much larger scale, the lack of funding has also prevented
   the Institution from providing additional and much needed permanent storage facilities, as
   well as from decontaminating facilities containing hazardous materials. As documented in the
   2005 report, Concern at the Core: Managing Smithsonian Collections, the Institution has been
   aware of these issues for many years. However, it has not developed and implemented a long-
   term plan to resolve these issues.




                                                 12

	 Some storage rooms were not
   designed for collections storage
   and most are not appropriate
   for long-term storage of objects                                            A large steam pipe and a
                                                                               smaller water pipe run
   because they also contain                                                   through a Music, Sports,
   heating, ventilation, and air                                               and Entertainment
   conditioning (HVAC) conduits                                                storage room which
                                                                               contains thousands of
   and water piping in nearly all                                              sound recordings (vinyl
   storage rooms. The HVAC                                                     records). The objects
   system throughout the museum                                                are stacked up to, and in
                                                                               some areas, over the
   building contains steam                                                     pipes. The shelving
   reheats, which use steam to                                                 below the pipes is
   regulate temperature. A                                                     draped in plastic to
                                                                               protect the objects from
   breakdown in this system                                                    water damage.
   releases steam and water into
   the collections storage rooms,
   causing leaks and damage to the
   objects. As a result, many of
   the storage rooms in the
   museum have regular problems with water leaks, resulting in damage to objects and mold
   growth, which is a hazard not only for objects, but may be to the staff as well. In 2005, OFEO
   initiated a pilot project to install electric reheat coils in two collections storage rooms,
   removing one source of potential leaks.

	 NMAH Public Space Renewal Project (PSRP) has had a negative impact on some collections
   storage areas. In some cases, storage rooms were shrunk drastically to make room for the
   sky-light, new conduits and pipes, and for additional elevators. This decrease in storage space
   will most likely lead to additional overcrowding. Moreover, objects were temporarily
   relocated to rooms with inadequate lighting, equipment, and security.



                                                                     This Medicine & Science Division
                                                                     storage room size was reduced
                                                                     drastically due to the PSRP
                                                                     renovations. In addition, various
                                                                     conduits were run through the
                                                                     room, including water, natural gas,
                                                                     HVAC, and sewage. This room was
                                                                     described as the “worst room” in the
                                                                     museum by CMS management.
                                                                     Both CMS and OFEO agreed that
                                                                     collections should not be stored
                                                                     here.




	 NMAH has not developed a comprehensive preservation program, which would establish
   formal preservation standards for the physical care of its collections. As discussed in the
   following audit finding, a lack of staff and decreasing resources has prevented the museum
   from developing, implementing, and maintaining a permanent preservation program, instead
   of relying on short-term funding to support a limited number of preservation projects.

                                                   13
	 Even though OFEO has established environmental standards, the age and configuration of
   the mall building HVAC system creates additional challenges for maintaining consistent
   temperature and humidity levels within storage rooms. Moreover, OFEO cannot provide
   specific temperature and humidity controls in every storage room. Some curatorial staff
   reported frequent fluctuations outside of the levels established and maintained by OFEO.
   Stable environmental conditions are a significant factor in the preservation of objects, and
   sharp variances outside of established ranges can damage most materials.

Although offsite storage facilities such as Pennsy Drive and MSC have provided significantly
improved conditions, the majority of the museum’s collections remain in overcrowded and
inadequate spaces on the Mall and at the Garber facility. As of the completion of this audit, the
CSSC has completed a survey of collections storage areas and developed a plan to address the
more immediate needs at the Garber facility in FY 2013. We hope that the Smithsonian
continues with its commitment to improve preservation conditions. Until storage conditions are
improved, objects will remain at risk and the museum will not be able to fulfill its mission of
long-term collections preservation. Inadequate storage conditions have contributed to the
damage of objects; the unavailability of objects for exhibits, research, loans and education; and
increased costs to stabilize and standardize collections and storage areas. The Institution and
museum could also be vulnerable to charges of poor stewardship of the collections.

Recommendations
To better ensure long-term preservation of the Smithsonian collections, we recommend that the
Deputy Under Secretary for Collections and Interdisciplinary Support, in coordination with the
Director, OFEO:

   1.	 Develop a prioritized plan for addressing collections storage needs Institution-wide that
       identifies possibilities for acquiring storage space.

To improve conditions in collections storage areas to ensure long-term preservation of the
NMAH collections, we recommend that the Under Secretary for History, Art and Culture, in
coordination with the Director, NMAH:

   2.	 Explore opportunities to increase available space, including ways to maximize existing
       storage space.

   3.	 Develop, fund, and implement a prioritized plan to replace substandard storage 

       equipment and housing with appropriate materials. 


To improve access to collections stored in contaminated storage areas and address the safety risks
associated with the contaminated buildings, we recommend that the Directors of OFEO and
NMAH, in coordination with the Under Secretary for History, Art and Culture:

   4.	 Develop and implement a plan to decontaminate objects and storage facilities containing
       hazardous materials.




                                                14

NMAH Lacks a Comprehensive Preservation Program

NMAH does not have a comprehensive preservation program, as required by Smithsonian policy.
Resources have significantly decreased over the last 20 years, resulting in an understaffed division
and insufficient funding to purchase necessary supplies, conduct preventative treatment of
objects, and limited continuing education opportunities for preservation and curatorial staff.
Without a cohesive preservation program, the museum cannot mitigate the deterioration of the
objects. The Institution faces the possibility of losing the educational, research, and exhibit value
of these objects and may be vulnerable to charges of poor trusteeship as caretakers of the public
collections.

As of FY 2011, the Institution has awarded over $10 million in CCPF funding for collections care
and preservation projects. Since FY 2005, NMAH has received over $1.2 million of these funds to
meet the most urgent inventory and preservation needs. For example, CCPF awards were used to
stabilize, re-house, and purchase new equipment for the military history uniforms, the
agriculture and natural resources, and the medical history collections. Ongoing preservation
                                                                         6
projects also included the conservation treatment of the Jefferson Bible. Staff and resources
provided by these awards, however, are temporary and do not solve all of the museum’s long-
term preservation needs. See Appendix D for photographs showing how additional funding for
preservation projects has improved equipment, housing, and housing practices for some NMAH
collections.

                                                       * * * *

NMAH’s inability to develop and resource a comprehensive preservation program is the result of
several causes:

    	 The Smithsonian and NMAH have not been able to maintain staffing levels within the
       Preservation Services division necessary to maintain a minimum level of care for the
       museum’s collections. Staffing levels have decreased 71% since 1990, from 17 staff
       members to only 5 in 2010. During the same period, the museum’s collections have
       grown 5%, from approximately 3 million in 1990 to 3.2 million in 2010.7 According to
       NMAH CMS, a minimum of 12 staff are needed in Preservation Services to provide basic
       care for the collections. In its 2009 budget request to the Smithsonian Office of Planning,
       Management, and Budget, the museum requested eight additional staff to restore
       preservation staffing levels. Smithsonian management did not include NMAH’s request
       for additional preservation staff in its comprehensive budget submission to Congress.

         According to NMAH management, museum specialists have historically performed
         preservation duties within their divisions. NMAH management explained that when 41
         museum specialists were converted to curatorial positions in 2005, many of these
         responsibilities were overlooked as staff took on the added curatorial duties. We note that
         many of the converted museum specialists were not actively performing preservation
         duties prior to the conversion.




6
  Thomas Jefferson’s bible, The Life and Morals of Jesus of Nazareth, is a small handmade book that provides a view of 

Jefferson’s private religious and moral philosophy. 

7
  This figure includes NMAH Archives Collection, for which the Preservation Services Division performs 

conservation services. 


                                                          15

    	 In addition to reductions in staff, the museum has not placed a priority on Preservation
       Services. While salaries for Preservation Services staff has remained relatively constant,
       non-salary expenses significantly declined from over $115,000 in FY 2005 to only $15,000
       in FY 2010.

        According to CMS management, in order to avoid the imminent shut down of the
        collections information system (CIS), CMS made the difficult decision to fund the system
        at the expense of preservation services. Similarly, CMS is funding digitization projects
        with resources that NMAH could have used to support Preservation Services.
        Additionally, when available, the museum spends resources on the conservation of objects
        to be exhibited or loaned, and not on the other aspects of a preservation program. These
        practices have resulted in inadequate funding for preservation supplies and training to
        adequately assess and protect objects from damage and deterioration. For example, the
        museum can no longer afford to purchase acid-free housing materials such as boxes,
        folders, tissue paper, and shelf-liners. In addition, Preservation Services staff are unable
        to obtain continuing education on proper object care techniques and lack the resources to
        train curatorial staff on appropriate preservation techniques.


                         NMAH CMS Non‐Salary Expenses by Unit
          $240,000.00 
          $220,000.00 
          $200,000.00 
          $180,000.00 
          $160,000.00                                                                            Registration
          $140,000.00 
                                                                                                 Offsite
          $120,000.00 
                                                                                                 CDS
          $100,000.00 
           $80,000.00                                                                            CMS
           $60,000.00                                                                            Preservation
           $40,000.00 
           $20,000.00 
                  $‐
          $(20,000.00)      FY05       FY06       FY07       FY08       FY09       FY10


    	 Lastly, total expenses for preservation services, including salaries and benefits, are less
       than average levels within the museum community. According to Heritage Preservation
       and the Institute of Museum and Library Services’ A Public Trust at Risk: the Heritage
       Health Index Report on the State of America’s Collections (2005)8 medium to large
       institutions spend approximately 5% of their budgets on preservation expenses.
       According to the Index, inadequate staffing and funding contribute to the damage or loss
       of collections. From FY 2005 to FY 2010, NMAH spent, on average, less than 3% of its
       federal and trust allocations on preservation expenses.

8
 NMAH participated in this comprehensive survey on the condition and preservation needs of all United States
collections held in public trust; it consisted of responses from 3,239 museums and institutions nationwide.

                                                       16

The lack of resources devoted to preservation care means the museum can no longer maintain a
minimal level of care or implement a comprehensive Preservation Program as required by
SD 600. We are concerned that NMAH’s failure to adequately resource and plan for preservation
needs puts the collections at significant risk. The longer an object is allowed to deteriorate, the
higher the costs will be to preserve the object. NMAH has emphasized in its budget requests that
the deterioration of the collections cannot be mitigated and artifacts are at high risk of damage
and loss. If these conditions persist, the museum will be vulnerable to charges of poor trusteeship
in its role as caretaker of the national collections.

Diminishing resources have impeded NMAH’s ability to maintain adequate preservation
conditions. The museum provides limited preservation support services for exhibits and loans.
For the majority of the NMAH collection it has not been able to proactively address the
preservation needs, maintain adequate preservation supplies and equipment to better house and
store objects; conduct regular preservation assessments and object conservation; research
preservation best practices to develop and implement minimum standards of care; attend
preservation education training; re-train NMAH staff; monitor environmental conditions; and
develop comprehensive disaster preparedness plans.

Recommendation
To comply with the Smithsonian’s collections management policy and to help ensure adequate
preservation of NMAH collections, we recommend that the Director, NMAH, in coordination
with the Under Secretary for History, Art and Culture:

   5.	 Establish and implement a Preservation Program, as required by SD 600, to include
       prioritized plans for conducting staffing and preservation assessments, as well as
       preservation and curatorial staff training.

Collections Storage Security Is Not Up to OPS Standards

Similar to what we reported in our NASM audit, the Smithsonian has not installed required
security devices in all of NMAH’s collections storage areas. The missing security devices
diminished controls necessary to prevent and detect theft of collections. If thefts do occur, it will
be difficult, if not impossible, for the Smithsonian to identify when or how the thefts occurred or
who was involved because there would be no electronic or other record of who accessed the
collections area.

Smithsonian Security Design Criteria stipulate the security devices that must be installed in
collections storage areas. We conducted our testing using the Medium risk level requirements,
which is the default level established in the Criteria. This risk level requires the following devices:
door contacts (“magnetic switches”), a lockable door, camera coverage of the entrance, motion
sensors on entry points, vibration sensors on walls, card readers, and arm/disarm panels.

NMAH’s collections storage areas on the Mall do not meet the standards set by OPS’s TSD
Security Design Criteria. Nearly all collections storage areas we reviewed at the museum (14 out
of 19) lack all but the most basic security devices, such as door contacts. Three of the five areas
that met security standards were temporary spaces created during the PSRP II renovation project.




                                                  17

The other two areas were permanent storage areas for the museum’s highest risk collections: the
National Numismatics Collection and the Division of Military History & Diplomacy’s firearms
collection. With the exception of the three contaminated buildings at the Garber Facility, offsite
storage locations appear to have most security devices installed.

We tested over 220 security devices in 19 rooms at NMAH and at 6 offsite storage areas. We did
not identify any significant problems with the functionality of these devices. However, we found
that several storage rooms have more than one door, but the door signs do not accurately reflect
the current layout of the storage areas. As a result, security officers responding to alarms could
be directed to the incorrect location.

We found that a majority of the collections storage areas at NMAH were put on alarm schedules
that deactivated security devices during the day. As a result, no activity or alarms are recorded
for these locations during the scheduled hours. This practice is not in accordance with OPS
policy; however, OPS management allows it as a matter of convenience because these doors do
not have card readers. If the security devices were active during the day, the Control Room
would receive an alarm each time a door opened and would have to dispatch an officer to
investigate. According to TSD management, doing so would be a major hindrance in the
performance of the Control Room Officer’s duties, and OPS has accepted the risks associated
with this practice.

                                             * * * *

The Smithsonian did not install security devices to the extent required by OPS standards because:

   	 OPS’ practice for requesting security upgrade funding is primarily tied to capital projects,
      rather than small stand-alone security upgrades for specific rooms. OPS management
      explained that they were aware that they are not in compliance with their own security
      standards. However, they expect to address the necessary upgrades as new capital projects
      are completed. In FY 2014, OPS plans to request $1 million for a comprehensive security
      modernization of NMAH collections storage rooms. In addition, in FY 2012, OPS plans
      to request $100,000 for collections security upgrades across the Institution in their
      maintenance budget. OPS plans to continue this request annually beginning in FY 2014.

       Although the Smithsonian has not fully upgraded security devices in NMAH collections
       storage areas, some recent security upgrades have been completed with financial
       assistance from the NMAH divisions and OFEO. For example, in 2008 OPS and the
       Military History & Diplomacy Division shared the costs of installing a surveillance camera
       outside one of their storage rooms. In 2010, as a result of the PSRP II project, the
       Smithsonian completed extensive security upgrades to a small storage room for the Home
       & Community Life Division. In 2011, the Smithsonian has budgeted $70,000 for security
       upgrades in two additional storage rooms within the Home & Community Life and
       Military History & Diplomacy Divisions.

   	 Because of poor communication between NMAH and OPS, OPS was not aware that a
      collection storage area contained a highly sensitive collection, which included weapons.
      Therefore, OPS did not apply the appropriate security standards to this storage room.




                                                18

   	 Asbestos insulation covers the infrastructure in the contaminated buildings at the Garber
      Facility. OPS cannot safely install security devices in any of these buildings prior to
      decontamination due to the failure of the asbestos containments and the lead-containing
      dust.

Security devices such as card readers and cameras provide an electronic record of who accessed
an area, when it was accessed, and where the access took place. In the event of a theft,
information recorded by these devices would be essential to an investigation. Failure to
implement these standards exposes the museum to an increased risk of theft, loss, or damage to
objects, especially in areas where valuable and sensitive collections are stored.

Recommendation

To strengthen physical controls over access to the NMAH collections storage areas and to bring
collections storage areas up to OPS standards, we recommend that the, Director, OFEO, in
coordination with the Under Secretary for Finance and Administration:

   6.	 Develop and implement a prioritized plan, in line with the findings of the CSSC survey, to
       bring NMAH collections storage areas into compliance with OPS’ Collection Space
       Security Standards and the Security Design Criteria.


OPS and NMAH Have Not Maintained Adequate Control Over Access to Collections Storage
Areas

Similar to what we reported in our audits of NMNH and NASM, security controls at NMAH
facilities were not working as intended. Although we found that security devices at NMAH were
functioning properly, we determined that OPS and NMAH staff needed to improve security
controls over key and electronic card reader access to collections storage areas, especially access
granted to volunteers. In addition, we determined that several individuals with unlimited access
the National Numismatics Collection had no record of an OPS background investigation.

OPS Key and Lock Policy, revised February 2011, states that Smithsonian employees and affiliated
staff who frequently require keys to collections storage and high security areas to perform their
duties and responsibilities may sign keys out from the security unit, as needed, and return them
at the end of their shift. The security unit maintains a Key Authorization List containing the
names of such employees and affiliated staff authorized to sign out keys, as designated by the
Security Manager and Building Director. The policy also requires that the Security Manager
conduct bi-annual inventories of keys to high security areas.

OPS’ Identity Management Handbook requires that all employees and affiliated staff, including
volunteers and researchers, receive an appropriate background investigation and official
Smithsonian credential if their association with the Institution is for more than 30 days and they
require unsupervised access to staff-only areas of Smithsonian controlled facilities or areas.

The SD 600 Implementation Manual requires each collecting unit to develop a written, approved
policy for permitting responsible access to collections, collections storage, and collections
documentation. This policy should regulate access of all persons, including collecting unit staff,
visitors, contractors, volunteers, and docents.



                                                 19

Weak Controls Over Keys

Since the majority of NMAH’s storage rooms are not outfitted with proximity card readers,
access to these rooms is controlled through keys and locks. Neither OPS nor unit personnel
adequately controlled keys, diminishing the effectiveness of locked doors as a security device. To
access collections storage areas, museum staff sign out multiple keys to collections storage areas
from the NMAH Security Office. We found that OPS security officers issued keys to staff and
volunteers who lacked proper authorization to access certain collections storage areas. For
example, one NMAH staff member was allowed to sign out a key under another employee’s
name. This individual was not authorized to sign out any keys. In another example, a volunteer
in the National Numismatics Collection signed out the key to the Numismatics suite several
times a month during the period August 2010 to October 2010, although his name had been
removed from the Key Authorization List several months earlier. This volunteer also had card
reader access to the Numismatics vault and therefore had unsupervised and unrestricted access to
a highly valuable and easily pilfered collection.

We also observed poor controls over keys to storage rooms and inconsistent practices on locking
cabinets within these storage rooms. Once the division staff signed out keys to their respective
storage rooms, keys were then stored in unsecured key boxes or drawers, accessible by fellow
division staff. Each division has its own lockbox, with varying levels of security controls, where
the keys are kept during the day. The security over these lockboxes was inadequate, with little, if
any, actual controls. For example, NMAH divisions did not maintain sign-out logs. One
division recorded sign-out activity on a dry-erase board, eliminating any historical records of
access. And when we conducted a sample inventory of the collections (during our audit of
inventory controls), we observed numerous instances where cabinets containing valuable
collections were not locked.

We found that keys were not always returned at the end of the day. In our discussions with
NMAH and OPS staff we learned that, in most cases, the person who signed out the keys was not
the same person who returned them. We also observed that lockboxes in the NMAH Security
Office were poorly organized and contained many keys no longer in use. During our tests, we
observed security staff having difficulty identifying keys needed to open storage rooms.

We are also concerned that improved controls over the OPS key sign-out process do little to
ensure that access to collections storage areas is properly controlled by the curatorial staff. Until
the Smithsonian has installed card readers with appropriate access limited to authorized staff, the
museum will never achieve proper control over its collections storage areas.

Poor Control Over Electronic Card Reader Access

We determined that there were poor controls over non-employees who have access to the
Numismatics Suite. In addition to current curatorial staff and security officers, 23 individuals
had card reader access to the Numismatics offices and vault. Numismatics staff could only
identify 10 of the 23 individuals as current volunteers, interns, or researchers. Of the remaining
13 individuals, the Numismatics staff identified six as previous volunteers or interns; could not
identify six; and identified one as deceased. We provided OPS Personnel Security Office with the
names of the 23 individuals. OPS confirmed that there were no records of background
screenings for most of these individuals, including three current volunteers. OPS believes that
the unscreened volunteers received their badges before May 2007, when the Smithsonian
instituted a policy of conducting background investigations on non-employees. After we alerted
OPS, the Personnel Security Office disabled the badges for the individuals with no background
investigation record.
                                                 20

We also found that there was no comprehensive listing of current volunteers. In addition, not all
of the museum’s volunteers were tracked by the Smithsonian’s Visitor Information and
Associates’ Reception Center (VIARC). NMAH divisions inform VIARC of volunteers and
researchers and voluntarily provide VIARC with monthly volunteer attendance reports. VIARC
only maintains this information for volunteers that they are monitoring. Since some volunteer
and researcher arrangements are made without VIARC’s knowledge, it is possible for a museum
or division to have volunteers who are not monitored by VIARC. VIARC continues to track
volunteer hours until the division informs them that the volunteer is no longer active. We
identified several volunteers on the VIARC report who have no hours reported in FY 2010 and
FY 2011. However, the division continues to identify these individuals as “current volunteers.”

NMAH is responsible for requesting card reader access to storage areas for the volunteers. When
the volunteer leaves, the museum is also responsible for contacting OPS so that any electronic
access can be deactivated. Although VIARC tracks hours reported by the museum, it cannot
request a deactivation of electronic access, even though they have observed that no volunteer
hours have been reported for the individual for an extended period of time.

We also identified several NMAH staff with electronic access to collections other than their
division’s collections. In accordance with the Smithsonian’s Collection Space Security Standards,
access to collections space should be limited to the minimum number of staff whose official
duties require frequent and regular access. While many of these rooms have since been emptied
of objects in preparation for the PSRP renovation, they served as temporary storage rooms
during earlier renovations and at least one room still contained valuable political history objects
during our audit.

                                              *****

OPS and NMAH did not have adequate control over access to collections storage areas because:

   	 OPS did not have a comprehensive Key Authorization List. Without such a list, OPS
      could not ensure that only authorized staff signed out keys. In fact, OPS relied on an
      incomplete and poorly organized list that was prepared and maintained by the Office of
      Curatorial Affairs. In addition, several divisions had not provided OPS with key access
      information for some storage rooms. However, OPS allowed staff to regularly sign out
      keys to these rooms. Lastly, the OPS Security Manager did not conduct a bi-annual
      review of the Key Authorization List to ensure that the information was up-to-date.
      When we notified the Security Manager of these problems, he took immediate action to
      ensure that the officers were verifying every employee to the official Key Authorization
      Lists on file. Any staff members who were not on the lists were denied keys until the
      division provided OPS with updated authorizations.

   	 OPS had not conducted an inventory of high security keys to determine what keys were
      still valid. As a result, the OPS key box contained multiple keys, many whose purposes
      are unknown, making it more difficult to quickly locate needed keys. OPS did not want
      to dispose of the unidentified keys out of concern that they might be needed.

   	 OPS and NMAH did not review card reader access reports on a regular basis to verify
      whether an individual had a continued need for access to collection storage areas.
      Although this requirement was included in previous OPS policies and procedures, it was
      excluded from revised policies and procedures.

                                                 21

   	 NMAH did not adequately oversee volunteers in the Numismatics collection storage area.
      We identified several volunteers with unlimited and unsupervised access to the collection
      storage area. We were told by museum staff that access levels may have been elevated to
      relieve staff from having to escort volunteers in and out of the storage area. We believe
      that NMAH practices should be more in line with practices at other Smithsonian units
      where volunteers have little or no access to high-value collections storage areas and must
      be escorted into, and supervised while working with, these collections.

       Background investigations had not been conducted for all volunteers on the card reader
       access report because many had become volunteers before the SI policy was implemented.
       We found several volunteers, both former and current, who have no record of an OPS
       background investigation. During the audit, the OPS Personnel Security Division
       disabled access for these individuals.
       In addition, NMAH was not informing OPS that volunteers were no longer active and
       requesting that their electronic access be deactivated. In some cases, volunteers are
       intermittent, or even seasonal. Museum staff are reluctant to request the deactivation of
       the volunteers’ identification badges because they believe the volunteer will eventually
       return.

   	 The museum has no clear policy on locking cabinets. Some staff believe that it is
      redundant to lock cabinets if the doors to the room are locked. Others believe that
      cabinets should be locked.

Poor controls over access to collections storage areas expose NMAH to an increased risk of theft,
loss or damage to objects. Inadequate control over keys reduces the effectiveness of locked doors
as a security device, compromising physical access controls for secure areas. Inappropriate access
levels diffuse the effectiveness of card reader systems and places the collections at greater risk.

As we noted in our report on inventory controls at NMAH, many divisions are plagued by
incomplete records and therefore would have difficulty proving that they had objects in their
collections or that objects were missing. The combination of poor records and poor access
controls compounds the risks to these valuable collections.

Recommendations
To strengthen controls over access to collections storage areas, we recommend that the Director,
OFEO, in conjunction with the Under Secretary for Finance and Administration:

   7.	 Install card readers on all NMAH collections storage areas, working in a prioritized
       manner, if necessary, starting with the more sensitive collection storage areas.

In the interim, we recommend that the Director, OPS in coordination with the Director, NMAH,
where applicable:

   8.	 Request updated Key Authorization Lists from NMAH Division chairs, develop a
       comprehensive report of authorized staff, and ensure compliance with OPS policies
       regarding keys.




                                                22

   9.	 Conduct regular inventories of NMAH collections storage keys, as required by OPS
       policy.

   10. Develop and implement OPS policies and procedures requiring the Technical Security
       Division and Security Managers to work with NMAH Division Chairs to review card
       reader access lists on a regular basis to ensure that access to collection storage areas is
       appropriate.

To strengthen oversight of access to collections storage areas, we recommend that the Director,
NMAH:

   11. Develop a written policy for permitting responsible access to collections documentation
       and collections storage areas, including improved controls over key and card reader
       access, as required by the SD 600 Implementation Manual and the Collection Space Security
       Standards.


Improper Segregation of Duties in NMAH’s CIS

NMAH is not ensuring that an adequate separation of duties exists between employees and
contractors with access to both the collections and collections records. We identified two staff
members and one contractor assigned to the Collections Documentation Services (CDS) division
with access to several collections storage areas, as well as CIS access levels allowing them to edit
and delete object records. In addition, we identified two Registration Services staff members
who, without authority, routinely signed out the keys to a collection storage room shared by the
Medicine & Science and Work & Industry Divisions. Not only did these staff members have
unsupervised access to the collections, one also had unrestricted access to all paper accession files
for the museum’s collections.

A traditional control technique in inventory management is to separate the responsibilities for
managing objects and maintaining object records. Separating these duties minimizes the risk of
records being adjusted to mask theft or loss. SD 600 states that collections units must ensure
adequate separation of duties and other internal controls to minimize the possible unauthorized
removal of collections items and corresponding records. The SD 600 Implementation Manual
further explains that there may be different levels of separation based on the value of the
collections; while high-value collections may need full separation of duties, other collections may
only need an audit trail to track changes. It also states that where separation of duties is not
possible, other compensating controls should be implemented to minimize any risks.

This condition was a result of insufficient collections management staff. To compensate for
limited staff, OCA allowed staff and contractors unrestricted access to both the objects and the
paper and electronic records, which they believed was necessary to inventory objects and to assist
curatorial staff with the movement of objects.

Without proper separation of duties it would be possible for an employee to remove an object
from the collections and eliminate any associated records, reducing the likelihood of detection.




                                                 23

Recommendation
To prevent staff and contractors from having unrestricted access to both objects and object
records, we recommend that the Director, NMAH:

   12. Ensure that CMS staff and contractors with the ability to delete or remove records do not
       have key and card reader access to the collections.

MANAGEMENT RESPONSE

The Under Secretaries for History Art and Culture (OUSHAC) and Finance and Administration
(OUSFA), the Deputy Under Secretary for Collections and Interdisciplinary Support (DUSCIS),
the Acting Director of NMAH, and the Directors of OFEO and OPS provided a consolidated
formal written response to our September 12, 2011 draft report. In their September 23, 2011
response, they generally concurred with all findings and recommendations. Smithsonian and
museum management acknowledge that “collections stewardship is among the Smithsonian’s
highest priorities and in some cases the greatest challenge.” They agreed that the Smithsonian has
not adequately addressed or implemented improvements to storage conditions or fully complied
with security standards. Further, Smithsonian and Museum management recognize that
improvement requires the implementation of responsive, prioritized, and funded plans.

The Smithsonian believes that the report minimizes the recent accomplishments of NMAH in
developing its collections care methodology. Further, management believes that with targeted
funding the Smithsonian, including NMAH, has made significant progress to improve the
management, care, and accessibility of collections.

Finally, the Smithsonian, using available resources, will strive for short-term solutions to address
issues identified at NMAH and will attempt to fund long-term solutions through budget requests
and private donations.

Below, we summarize their comments and then offer our responses to those comments.

Recommendation 1. Concur. The National Collections Program and the Office Planning and
Project Management, through the CSSC, will develop a collection space plan highlighting near-
term, intermediate, and long-term collections storage requirements. The DUSCIS, in
coordination with the Director, OFEO has proposed to complete corrective action by
September 30, 2012.

Recommendation 2. Concur. Smithsonian management has contracted an architect and
engineering firm to support the CSSC’s planning efforts to maximize existing space and examine
options to acquire new space. The OUSHAC in coordination with the Director, NMAH has
proposed to complete corrective action by September 30, 2012.

Recommendation 3. Concur with clarification. NMAH will take steps to prioritize storage
equipment needs using CSSC’s collections space survey data and will establish and outline
priorities by September 30, 2012. Funding and implementation of the plan requires additional
resources, therefore the OUSHAC and the Director, NMAH cannot estimate a completion date.

Recommendation 4. Concur with clarification. Smithsonian management does not believe that
contaminated storage areas at the Garber Facility pose a public or employee safety hazard
requiring immediate remediation. Still, management is developing a long-term plan to

                                                 24

decontaminate collections objects and demolish storage facilities with asbestos insulation and
failing containments. This plan, submitted as part of the Institution’s FY 2013 Office of
Management and Budget federal budget request, includes a design of a temporary storage facility
to house decontaminated objects. Smithsonian management will redirect FY 2012 resources to
design the temporary facility and decontamination project. However, a construction plan will
take additional time and is subject to the availability of funds. The Directors of OFEO and
NMAH in coordination with the OUSHAC have proposed to initiate corrective action by
September 30, 2012.

Recommendation 5. Concur with clarification. NMAH management has developed a strategic
and integrated collections care methodology which it believes incorporates the components of a
preservation program in accordance with SD 600 Implementation Manual. In addition, NMAH
addresses conservation treatment of objects through a prioritized plan based on exhibition, loan
and research needs. NMAH management will formally document its collection care
methodology and establish priorities for its implementation. The Director, NMAH in
coordination with the OUSHAC, has proposed to complete corrective action by
September 30, 2012.

Recommendations 6 and 7. Concur. OFEO has identified a capital project to bring NMAH
collection storage areas into compliance with OPS Collection Space Security Standards and will
seek funding from the Capital Planning Board for fiscal year 2014. In addition, in fiscal years
2012 and 2013, OFEO will develop a prioritized plan that will include several smaller, higher
priority projects, such as the installation of card readers in sensitive collections storage areas. The
Director, OFEO in coordination with the OUSFA, has proposed to initiate corrective action by
September 30, 2012.

Recommendations 8, 9, and 10. Concur. OPS has begun to update the Key Authorization Lists
and inventory NMAH collection storage room keys. OPS revised the Smithsonian Access Control
Handbook to identify the requirement for regular reviews of electronic access. They are currently
reviewing electronic access with NMAH Division staff. OPS will conduct bi-annual reviews to
ensure that access to storage rooms is appropriate. The Director, OPS has proposed to initiate
corrective action by December 30, 2011.

Recommendation 11. Concur. NMAH will create a study group to develop and recommend a
consistent policy on access to collections storage areas. The Director, NMAH has proposed to
complete corrective action by December 31, 2012.

In the interim and effective October 1, 2011, NMAH access policy will reflect that only museum
staff will have key and card reader access to the Numismatics collection.

Recommendation 12. Concur. NMAH has eliminated the ability of CMS staff to both delete and
remove records in the CIS while having key or card reader access to collections. NMAH also
states that contractors never have the authority to delete CIS records. The Director, NMAH,
believes that corrective action has been completed as of the date of this report.




                                                  25

OFFICE OF THE INSPECTOR GENERAL COMMENTS

NMAH has not received the appropriate level of attention and funding needed to maintain
minimum levels of care and security over America’s treasures. As the Smithsonian continues to
renovate and expand existing exhibit and public spaces throughout its museums, we encourage
the Smithsonian to sustain its commitment to improving conditions and upgrading security at
NMAH collections storage areas. We are heartened that the Smithsonian has begun to take an
aggressive approach to improving collections stewardship at NMAH.

Below, we address Smithsonian management’s and NMAH’s general comments on the report, as
well as clarify the intent of several of our recommendations.

Although we recognize the museum’s efforts to improve collections care with limited resources,
we do not endorse NMAH’s current reliance on temporary and competitive awards as the sole
means to address long-term collections needs. In their general comments, Smithsonian
management elaborated on the projects they have been able to undertake only with the assistance
of the CCPF. However, we believe that Smithsonian management over-emphasizes the impact of
these projects on the 1.8 million objects in the NMAH collection. As mentioned in the report,
this approach will not sustain a comprehensive preservation program. We believe that
Smithsonian management needs to aggressively pursue increases to NMAH’s base funding to
achieve its strategic goal of strengthening collections stewardship.

Smithsonian management stated that the report did not acknowledge incremental improvements
to NMAH storage areas and minimizes the achievements of NMAH’s collections care
methodology. We did describe collections care projects that have improved preservation
conditions for some collections (see page 15), and in Appendix D added photographs showing
the positive effects of such efforts. Therefore, we do not believe that we have minimized the
efforts of NMAH staff.

The Smithsonian believes that the report does not sufficiently acknowledge the condition of the
objects when they were transferred from the U. S. National Museum or the challenges NMAH
has faced managing the collections, as well as its day-to-day operations. We understand that the
Museum inherited many challenges that come with caring for an old collection. However, had
the museum maintained a comprehensive preservation program, we believe that the current
conditions would not be as severe.

In addition, the Smithsonian claims that the report did not adequately address that, when
purchased, storage equipment and materials were considered to be standard. We acknowledge in
the report that standards have changed; however, the museum should have adopted and
implemented revised standards reflecting advancements in the preservation profession.

Smithsonian management expressed concurrence with recommendation 4, but disagrees that the
contaminated buildings constitute an immediate health and safety hazard. Based upon structural
assessments conducted at Garber since the collapse of a storage building in 2010 and possible
damage caused by a recent earthquake, we remain concerned about the potential health and
safety impacts should these contaminated facilities collapse. Management’s response suggests it
is willing to accept the potential risk to both staff and the surrounding community.




                                               26

The museum expressed concurrence with recommendation 11 and proposed both interim and
permanent access policies. As NMAH works to develop a permanent policy for access to its
collections storage areas, we encourage NMAH management to clearly differentiate between
employees and affiliated staff (such as volunteers, interns, and researchers) and restrict access to
its more sensitive collections.

Although NMAH concurred with recommendation 12, it responded that contractors never have
the ability to delete records. Evidence we obtained during the audit shows otherwise. CDS staff
provided us with two user access level reports that listed multiple contractors with the authority
to delete CIS records. We shared a list of these contractors with CDS and CMS management.
Based on NMAH’s response, we do not consider this recommendation to be resolved. Therefore,
we will expect NMAH to develop and implement a policy restricting staff and contractors from
having access to both collections and the corresponding records.

Finally, as stated in this report, we believe that the recommendations from both NMAH audit
reports are interconnected and equally important for strengthening collection stewardship.
While we issued two separate reports to expedite management action, we expect the Smithsonian,
NMAH, and OPS to implement corrective action of the recommendations with integrated and
comprehensive plans for improving the inventory, preservation, and security controls over the
NMAH collection.

We appreciate the courtesy and cooperation of NMAH and OPS staff during the course of this
audit.




                                                 27
APPENDIX A. SCOPE AND METHODOLOGY
This audit included three objectives. An earlier report (A-10-03-1) addressed the inventory
controls objective, which was to determine whether NMAH’s inventory controls were in place
and adequate to ensure the collections are properly accounted for. This report addresses the first
and third objectives regarding physical security and preservation, which were to determine
whether physical security controls were adequate to safeguard the collections, and to assess the
preservation of the collections.

We reviewed previous audit reports of security and stewardship of the Smithsonian’s collections.
We also reviewed Smithsonian directives and guidance related to collections management; OPS
handbooks and guidance related to security of collections; and OFEO studies on the condition of
storage facilities. We also reviewed a previous survey that documented and evaluated the
preservation needs and conditions of the Museum’s collections. Further, we examined standards,
practices, and studies from other organizations, including museums.

To assess whether physical security controls were adequate and collections were properly
preserved in compliance with Smithsonian and museum collections management policies and
procedures, we selected two judgmental samples of collections storage areas. Because we selected
a judgmental sample, we cannot project the results of either test to the universe of collections
storage areas.

Because we excluded the Archives Center collection from our first report, we did not include a
review of the Center’s preservation practices, and the condition and physical security of its
collection storage areas.

Preservation of the Collections and Condition of Storage Facilities

We interviewed personnel in NMAH’s Collections Management Services, Preservation Services,
Collections Documentation Services, Department of History, Personnel, and Finance units. We
also interviewed the National Collections Coordinator, the Office of Planning, Management, and
Budget, and staff at the Smithsonian’s Museum Conservation Institute. We also met with
members of the new CSSC, including staff from NMAH, OFEO, and OPS, to discuss their work
as it related to our audit.

We met with OPPM’s Project Manager for the NMAH PSRP to discuss the impact of the project
on collections storage, as well as future plans to renovate permanent collections storage rooms.
We also met with the Office of Facilities Management and Reliability’s West Mall Facility Zone
Manager to discuss the problems with and plans to replace the HVAC system in the NMAH
building.

We evaluated the controls over maintaining proper storage conditions for the NMAH collections
to identify procedural strengths and weaknesses. In coordination with CMS management, we
developed a preservation assessment tool to evaluate preservation practices and storage
conditions at NMAH. We selected a judgmental sample of collections storage areas at NMAH
facilities in Washington, DC, and Maryland based on the size of the room, as well as the number
and nature of the objects stored within. For each storage area, we analyzed the storage
equipment, housing, housing practices, and the facility control. (See Appendix C for descriptions
of preservation assessment tool criteria.) We did not assess the conditions at three offsite storage
buildings because of asbestos and lead contamination. We conducted this evaluation in
coordination with CMS management, NMAH Preservation Services, and the curatorial staff.


                                                  A-1 

Physical Security of Collections Storage Areas

We interviewed OPS management and staff to determine physical security policies and
procedures. We met with NMAH OCA staff to discuss their concerns with physical security,
communications with OPS, and internal museum policies and procedures regarding access to
collections. We also conducted an on-line survey of the curatorial staff.

To assess physical security controls at NMAH, we selected a judgmental sample of collections
storage areas at NMAH facilities in Washington, DC, and Maryland based on the size and the
sensitivity of the collections stored in the rooms. We also tested all areas included in TSD’s bi-
annual High-Risk Area Inspection Program. We could not assess the conditions at three offsite
storage buildings because of asbestos and lead contamination. We conducted this evaluation in
coordination with staff from OPS Operations, System Administration, and Security Engineering
Support Divisions. With the assistance of OPS staff, we opened secured doors and activated
various types of security devices to determine whether alarms were working properly. We also
observed alarm and camera activity from the OPS control rooms and received reports from the
security system to verify our results. During the testing, we noted where security was not in
compliance with the “Medium Risk” level described in OPS’ Security Design Criteria.

We analyzed three months of OPS’ Key Register Log records to determine if keys to collections
storage areas were being signed out by authorized staff and were being returned in a timely
matter.

We obtained and reviewed card reader access control lists for collections storage rooms to
determine whether staff or volunteers had inappropriate access to storage areas. We verified
whether OPS had appropriately screened volunteers with access to the National Numismatic
Collection storage area and verified whether volunteers were tracked by the Smithsonian’s Visitor
Information and Associates’ Reception Center.

We reviewed CIS user access levels and compared them to card reader access reports and OPS
Key Authorization Lists to determine whether staff had access to both objects and their
corresponding CIS records and accession files.

We conducted this performance audit in Washington, D.C., from September 2009 through
June 2011, in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence we obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




                                                 A-2 

              APPENDIX B. MANAGEMENT'S RESPONSE

                                                                                 	  
                             Office of the Deputy Under Secretary for Collections and Interdisciplinary Support


	       Date	       September 23, 2011	  
	  
 	         To	      A. Sprightley Ryan, Inspector General
	  
	           cc	     David K. Allison, Associate Director, National Museum of American History (NMAH)
                      Karen Garlick, Assistant Director, Collections Management Services, NMAH
                      William G. Tompkins, National Collections Coordinator, National Collections Program
                      Douglas Hall, Associate Director, Physical Security and Risk Management, Office of Protection
                      Services (OPS)
                      Peter Mroczkiewicz, Deputy Director, Operations, OPS
                      	  
	      From	        Scott Miller, Deputy Under Secretary for Collections and Interdisciplinary Support
                      Richard Kurin, Under Secretary for History, Art and Culture
                      Alison McNally, Under Secretary for Finance and Administration
                      Marc Pachter, Director, National Museum of American History
                      Bruce Kendall, Director, Office of Facilities Engineering and Operations
                      William T. Lynch, Director, OPS

                      	  
	   Subject	   Management	  Response to Inspector General Audit of Collections Stewardship of the National
                 Collections at the National Museum of American History—Preservation and Physical Security,
                 (A-10-03-2)

                      This response is collectively submitted on behalf of Smithsonian management, including
                      the National Museum of American History (NMAH).
                      We extend our thanks to the Office of Inspector General (OIG) staff for their audit of
                      collections preservation and security at NMAH, and for their recommendations on ways
                      to improve collections stewardship. We appreciate the cooperation, attention and
                      professionalism of the OIG staff in this series of collections audits.
                      Collections stewardship is among the Smithsonian’s highest priorities, and in some cases
                      the greatest challenge. The volume, characteristics, complexity and age of Smithsonian
                      collections, as well as the variety of discipline-specific standards that apply to their care,
                      make their management as complex as the collections themselves.
                      The Smithsonian appreciates OIG’s assessment in this audit that physical security is
                      generally adequate. We concur that modern standards drive our critical decisions and we
                      will continue to make security improvements as warranted.
                      The Smithsonian management acknowledges that declining resources and staff erosion
                      have impaired our ability to sustainably support collections management activities. While
                      this is true at NMAH and throughout the Smithsonian, the Institution has made
                      significant strides in improving the management, care and accessibility of collections
                      with targeted collections care funding. The Smithsonian has been successful by taking
                      pragmatic and strategic approaches that address collections needs with integrated and
                      cost-effective strategies, which OIG has endorsed. Through collections assessments, and



                                                                                        B-1
both long- and short-term planning and prioritization, the Smithsonian has targeted those
collections with the greatest relevance in supporting the Institution’s mission and
strategic plan; the most urgent collections preservations needs; and the highest current or
potential use for research, education and exhibition.
The Smithsonian recognizes that the recommendations outlined by the OIG are
appropriate, but would require an infusion of very significant new resources. Given what
available resources the Institution does have, the Smithsonian will strive for effective
short-term solutions to the issues profiled at NMAH and to other prioritized issues
throughout the Institution. And through continuing federal budget requests and private
donations, the Smithsonian will strive for enhanced long-term solutions to collections
issues comprehensively. Both approaches illustrate the stark reality of responsiveness
guided by the availability of resources.
Despite present and continuing resource constraints, this audit on stewardship of
collections at NMAH comes at an opportune time as management engages in a search for
a new NMAH Director. Collections issues have not been adequately prioritized by the
museum in the past; the incoming NMAH Director will have central, solid support on
efforts that rectify problems identified within the audit and enhance collections
stewardship and accessibility at NMAH overall.


Response to Findings
The Smithsonian does not refute the general findings of this audit that storage and
housing conditions in many of the museum’s collections storage locations must be
improved. The Smithsonian acknowledges that improvement requires the implementation
of responsive, prioritized and funded plans. The Smithsonian also recognizes the need for
targeted funding to address these concerns.
This and the other recent OIG audits on collections detail some of the real and sometimes
challenging aspects of caring for collections as large and diverse as 1.8 million objects
and 16,000 cubic feet of archival material at NMAH and 137 million objects and
specimens, 1.9 million library volumes, and more than 100,000 cubic feet of archival
material Smithsonian-wide.
The audit findings do however have some shortcomings:
Inherited or Pre-Existing Conditions May Be Underestimated. The OIG audit series on
collections, including this one at NMAH, does not sufficiently acknowledge existing
conditions or the broader context necessary for understanding why the conditions may
exist. NMAH, in this example, opened in 1964, with a hundred-year history of broad and
deep preservation issues within the newly transferred collections. Tackling that backlog
while acquiring new collections and running a robust museum requires funds and
personnel well beyond those allowed by appropriation.
The Improvement of Standards May Not Be Appropriately Attributed. Similarly, the
OIG reports may not sufficiently explain that today’s preservation standards, preservation
housing and storage options, inventory controls, security and methods for evaluating the
suitability and fitness of systems for specific collections differ markedly from the past,
when choices were more limited and may be inappropriate from today’s perspective. In



                                            B-2
many cases, Smithsonian staff have established and improved the industry standards and
best practices for storage, housing and security—but retrofitting those standards to past
collections and practices is challenging.
Smithsonian and NMAH’s Incremental Improvements Largely Unacknowledged. The
report minimizes achievements NMAH has made over the last six years through the
development of a collections care methodology. This process includes a component for
planning upgrades to storage, housing, space usage, and accessibility. For example, using
this methodology in 2009-2010, the museum prioritized and funded a project in the
agriculture and natural resources collections. The project established inventory control
over 27,118 objects, recorded accountability data in the collections information system
(CIS), and created and linked 47,186 digital images to the CIS. The museum also began
collections maintenance work, and created a storage and housing plan to address
preservation deficiencies. Targeted incremental improvements at the museum have been
significant.
Facility upgrades have also gained preservation improvements for the museum. Most
notably, the move to Pennsy Drive provided NMAH with 106,800 square feet of space to
consolidate collections from two remote locations. In the process, housing was upgraded
for 30 percent of the objects through re-crating, and modern storage systems were
provided. Similarly, at the Garber Facility when a 2010 OFEO snow emergency
structural assessment revealed serious deficiencies in the structural integrity of all seven
of NMAH’s Garber buildings, interim measures were taken immediately to reinforce the
building of greatest concern, and a project to install a system of structural towers in the
building will begin in October 2011. The assessment also helped drive the Institution’s
prioritization of these buildings for capital planning board consideration.
Significant Strides in Collections Space Planning May Appear Minimized.Most
promising for long-range collections preservation is the formation of the Smithsonian
Collections Space Steering Committee (CSSC), a pan-Institutional body chartered to
develop a plan with near-term, intermediate, and long-term recommendations for
addressing current and projected Institutional collections space needs. The report
mentions this group, but may not have expressed the significant impact or correlated the
work to the audit recommendations.
Separate Preservation and Inventory Components May Segment These Initiatives.
Separating the inventory and preservation components of the stewardship audit into two
discrete reports with no cross-references (and security concerns outlined separately in
each) may create an impression that it is feasible and desirable for remediation in both
areas to proceed simultaneously, but in isolation from each other. Collections care is not a
single process, but a series of components that are interwoven, interdependent and
ongoing. The interdependencies of the preservation and inventory components, as well as
security, are not reflected as integrated recommendations, but this interconnectivity, and
indeed the interconnectivity of all Smithsonian museums and collections, is the context
by which any OIG recommendation is executed.




                                            B-3
Response to Recommendations
To better ensure long-term preservation of the Smithsonian collections, OIG recommends
that the Deputy Under Secretary for Collections and Interdisciplinary Support (DUSCIS),
in coordination with the Director, OFEO:
   1.	 Develop a prioritized plan for addressing collections storage needs 

       Institution-wide that identifies possibilities for acquiring storage space. 


   Response: Concur

       The National Collections Program and the Office of Planning and Project
       Management/OFEO are leading an Institution-wide initiative to develop a
       Smithsonian collections space plan with near-term, intermediate, and long-term
       recommendations for addressing current and projected Smithsonian-wide
       collections storage requirements.
       The collaborative Collections Space Steering Committee recently completed a
       survey of over 2.1 million square feet of collections space. Data were collected
       from over 30 properties, representing 1,800 spaces or 17.5 percent of the
       Smithsonian’s total square footage. This baseline data provide a snapshot of
       current collections space conditions and characterizes the quality of collections
       space, storage equipment, accessibility, environmental conditions, security, and
       fire safety.
       The Committee’s work will progress through FY12 but has already informed the
       Smithsonian’s FY13 federal budget request to OMB. The Smithsonian will take
       incremental steps towards implementation of the comprehensive collections space
       plan as resources permit.

   Anticipated completion date: September 30, 2012


To improve conditions in collections storage areas to ensure long-term preservation of the
NMAH collections, OIG recommends that the Under Secretary for History, Art and
Culture, (OUSHAC) in coordination with the Director NMAH:
   2.	 Explore opportunities to increase available space, including ways to maximize
       existing storage space.

   Response: Concur

       Recognizing that creation of new space is a resource issue, the Smithsonian is
       actively exploring ways to maximize existing space and examining all possible
       options to acquire new space. The Smithsonian, and NMAH in particular, will
       explore ways to further employ the collections space survey data collected by the
       Collections Space Steering Committee described in recommendation #1. Further,
       an experienced architecture and engineering firm was contracted to support the
       steering committee’s planning efforts; the Smithsonian will explore opportunities
       to effectively leverage this resource.



                                             B-4
       Additionally, NMAH will work with OFEO to re-examine phase four of the
       NMAH Public Space Renewal Project for opportunities to include additional off-
       site object storage space.
       In context of collections care projects, NMAH routinely looks at the potential for
       compact shelving and was able to successfully use compact shelving in the
       rehousing of its military uniform collections described earlier in this response.
       NMAH will continue to explore all possible options for maximum beneficial use
       of space, including those that require an infusion of resources.

   Anticipated completion date: September 30, 2012


   3.	 Develop, fund and implement a prioritized plan to replace substandard storage
       equipment and housing with appropriate materials.

   Response: Concur with clarification

       The issue of implementation is largely resource dependent and beyond the
       Smithsonian’s complete control—dedicated funding is required to implement
       larger scale issues with substandard storage equipment and housing. Replacement
       of obsolete collections cabinetry also requires available swing space, which
       NMAH currently lacks. However, NMAH can take steps to prioritize storage
       equipment needs using the collections space survey data. The museum will
       continue to employ its collections care methodology to prioritize these goals. The
       NMAH inventory component must be completed first for assessment and
       comparison of issues; phase two of the methodology examines preservation
       planning targeting replacement considerations.

   Anticipated completion date to establish and outline priorities: September 30, 2012
   Funding and implementation cannot be estimated with currently available resources.


To improve access to collections stored in contaminated storage areas and address the
safety risks associated with the contaminated buildings, OIG recommends that the
Directors of OFEO and NMAH in coordination with the OUSHAC:
   4.	 Develop and implement a plan to decontaminate objects and storage facilities
       containing hazardous materials.

   Response: Concur with clarification

       Neither the OIG nor studies and assessments by OFEO have concluded that the
       storage facilities constitute a public or employee safety hazard requiring
       immediate remediation. OFEO and NMAH, in coordination with the OUSHAC
       and the Collections Space Steering Committee, are actively engaged in
       developing a long-term plan to decontaminate collection objects and to demolish
       storage facilities with asbestos insulation and failing containments. This plan,
       submitted as part of the Institution’s FY13 OMB federal budget request, will



                                           B-5
      involve design of a temporary (swing space) storage facility. The Smithsonian
      management believes that it can demonstrate progress in the implementation of
      this effort by redirecting resources for designing the building and the
      decontamination project in FY12. Funding the construction plan will take
      additional time and will be dependent upon the availability of appropriated funds.

   Anticipated completion date of plan and initial implementation: September 30, 2012


To comply with the Smithsonian’s collections management policy and to help ensure
adequate preservation of NMAH collections, OIG recommends that the Director, NMAH,
in coordination with the OUSHAC:
   5.	 Establish and implement a Preservation Program, as required by SD600, to
       include prioritized plans for conducting staffing and preservation assessments, as
       well as preservation and curatorial staff training.

   Response: Concur with clarification

      NMAH developed a strategic and integrated collections care methodology to
      address the needs of collections within the constraints of available resources and
      facilities. The methodology incorporates the components of a preservation
      program, as outlined in the SD 600 Implementation Manual. Developed over
      time, the approach has been refined to achieve higher productivity, economies of
      scale, and sustained collections accountability and preservation results – thereby,
      addressing components of both audits. In addition, NMAH addresses conservation
      treatment of objects through a prioritized plan based on exhibition, loan, and
      research needs.
      While recent accomplishments in preservation are encouraging, it is evident that
      considerable preservation work lies ahead. NMAH now has a fully matured
      methodology with a proven record of accountability and preservation
      achievements. NMAH will continue to apply its collections care methodology
      based on collections assessments, which balances inventory and preservation
      needs and addresses them in a prioritized manner to accrue benefits for the widest
      segment of the collections possible. To address the spirit of this recommendation,
      NMAH will formally document its collections care methodology, establishing
      priorities and strategies for its implementation.

   Anticipated completion: September 30, 2012




                                           B-6
To strengthen physical controls over access to the NMAH collections storage areas and to
bring collections storage areas up to OPS standards, OIG recommends that the Director
of OFEO in coordination with the Under Secretary for Finance and Administration
(OUSFA):
   6.	 Develop and implement a prioritized plan, in line with the findings of the CSSC
       survey, to bring NMAH collections storage areas into compliance with OPS’
       Collections Space Security Standards and the Security Design Criteria.

   Response: Concur

       As OIG has accurately indicated, OFEO is aware that the NMAH’s collections
       spaces do not comply with current Collection Space Security Standards and have
       identified a capital project in FY14 to correct these deficiencies. However, this
       project is now identified to be $1.5 M rather than the $1M identified in the audit
       report.
       Additionally, OUSFA and OFEO will develop a prioritized plan that will include
       several smaller, higher priority projects in FY12 and FY13 (to include the card
       readers identified in Recommendation #7) and will request capital funding to
       support these efforts. The Smithsonian management believes that it can
       demonstrate progress in FY12 in the implementation of this plan pending
       approval of the Smithsonian Capital Planning Board.

   Anticipated completion of prioritized plan and initial implementation: September 30,
   2012


To strengthen controls over access to collections storage areas, the OIG recommends that
the Director of OFEO, in conjunction with the OUSFA:
   7.	 Install card readers on all NMAH collections storage areas, working in a 

       prioritized manner, if necessary, starting with the more sensitive collection 

       storage areas. 


   Response: Concur

       The OUSFA and OFEO agree that card readers will improve the security of the
       NMAH collections spaces and will include them in the plan identified in
       Recommendation #6.

   Anticipated completion of prioritized plan and initial implementation: September 30,
   2012




                                            B-7
In the interim, OIG recommends that the Director, OPS in coordination with the Director,
NMAH, where applicable:
   8.	 Request updated Key Authorization Lists from NMAH Division Chairs, develop a
       comprehensive report of authorized staff, and ensure compliance with OPS
       policies regarding keys.

   Response: Concur

       OPS has already begun updating the Key Authorization Lists and has
       implemented internal performance metrics to ensure that these lists are reviewed
       every six months as outlined by OPS policy.

   Anticipated date to complete initial update: December 30, 2011


   9.	 Conduct regular inventories of NMAH collection storage keys, as required by
       OPS policy.

   Response: Concur

       OPS has already begun inventories of NMAH keys and implemented internal
       performance metrics to ensure that they are reviewed every six months as outlined
       in OPS policy.

   Anticipated date to complete initial inventory update: December 30, 2011


   10. Develop and implement OPS policies and procedures requiring Technical
       Security Division and Security Managers to work with the NMAH Division
       Chairs to review card reader access lists on a regular basis to ensure that access to
       collection storage areas is appropriate.

   Response: Concur

       OPS has already updated the Smithsonian Access Control Handbook to identify
       the requirement for regular reviews of electronic access as well as begun reviews
       of electronic access with the NMAH Division Chairs and staff. OPS has also
       implemented internal performance metrics to ensure that the records are reviewed
       every six months as indicated in OPS policy.

   Anticipated date to complete initial update: December 30, 2011


To strengthen oversight of access to collections storage areas, OIG recommends that the
Director, NMAH:
   11. Develop a written policy permitting responsible access to collections
       documentation and collections storage areas, including improved controls over



                                            B-8
   key and card reader access, as required by SD600 Implementation Manual and the
   Collections Space Security Standards

Response: Concur

   As described below, some work has already been accomplished and other work is
   pending.

   Regarding collections documentation in NMAH’s collections information system
   (CIS):
   NMAH has an access policy documented in the system security plan and
   implemented through administration of the CIS. Since 1996, all users have been
   assigned “roles” that restrict their permissions to add, create, or modify data and a
   “view” that restricts the visibility of data. Users have signed an agreement with
   terms and conditions of use. User accounts are reviewed monthly to determine if
   any account should be disabled or deleted due to inactivity. Also since 2008, user
   accounts have been reviewed monthly to ensure that only necessary accounts
   exist.

Completed as per dates above.

   Regarding collections documentation in paper records:
   The policy for access to the Museum’s accession files will be reviewed in the
   context of the consolidation and relocation of registration and collections
   documentation functions (including the accession files) to the south wing of the
   building in spring-summer 2012.

Anticipated completion date: September 30, 2012

   Access to collections documentation in divisional files is being addressed on an
   ongoing basis in the context of collections care projects that are incorporating this
   information into the CIS, as relevant.

Anticipated completion: Ongoing

    Regarding access to collections storage areas:
    NMAH will create a study group to develop and recommend consistent policy on
    access to collections storage areas. The resulting policy will be disseminated to
    NMAH staff, implemented, and monitored. In the interim and effective October
    1, 2011, the NMAH access policy will reflect that only museum staff have key
    and card reader access to the numismatics collection.

Estimated completion date: December 31, 2012




                                        B-9
To prevent staff and contractors from having unrestricted access to both objects and 

object records, OIG recommends that the Director, NMAH:

   12. Ensure that CMS staff and contractors with the ability to delete or remove records
       do not have key and card reader access to the collections.

   Response: Concur

        There are no longer any CMS staff with ability to delete or remove records who
        also have key or card access to the collections. Contractors never have the
        authority to delete CIS records.

Completed as of date of this response.




                                          B-10
APPENDIX C. TESTING DETAILS

1. Preservation Testing Results Summary
The following charts represent the numbers of storage areas that we assessed as standard (green),
sub-standard (red), or a combination of both (yellow).

     STORAGE EQUIPMENT                                         HOUSING


          6                                                        3
                          9
                                                                             13

                                                         13
              14



Storage Equipment - the cabinet,                Housing - the materials that are used to
racking, shelving, etc. that holds the          hold and support the objects within the
objects. A standard rating meant that           equipment, such as folders, boxes, tissue
the equipment was structurally sound,           paper, and foam. A standard rating
made of stable materials (e.g. metal),          meant that the housing materials were
had no harmful components or                    structurally sound, acid-free, and
hazardous materials, and was                    appropriate for the objects.
appropriate for storing the objects.



       HOUSING PRACTICES                                FACILITIES CONTROL


              3
                                                                         6
                          12

        14
                                                              23




Housing Practices - how the objects             Facilities Control - the physical
are housed within the storage                   conditions of the room or building, as
equipment. A standard rating meant              well as the systems needed to support
that the equipment was not                      the facility, such as HVAC. A standard
overcrowded and that housing                    rating meant that there were no
materials such as boxes and folders             structural problems, no active leaks or
were not over- or under- filled.                history of leaks, stable environmental
                                                conditions, appropriate lighting, and no
                                                hazardous materials.


                                               C-1 

      2. Summary of Installed Security Devices
SECURITY DEVICE                   1      2       3     4       5      6      7       8             9 
Card Readers                     Yx3     Y      N     N        N      N      N       N             N 
Magnetic Switches on Doors       Yx5    Yx3    Yx2    Y       Yx2    Yx2    Yx2     Yx2           Yx2 
Lockable Door (secure hinges)    Yx5    Yx3    Yx2    Y       Yx2    Yx2    Yx2     Yx2           Yx2 
CCTV (color, 24/7 recording)     Yx3     Y      N     N        N      N      N       N             N 
Vibration Sensors                 Y      Y      N     N        N      N      N       N             N 
Motion Sensors                    Y      Y      Y     N        N      Y      N       Y             N 
Arm/Disarm Panel                  N      Y      N     N        N      N      N       N             N 

SECURITY DEVICE                  10     11     12     13      14     15     16      17            18 
Card Readers                      N     N       N      N      N       N      N      Y              Y 
Magnetic Switches on Doors       Yx2    Y      Yx2    Yx2     Y      Yx2    Yx2     Y             Yx2 
Lockable Door (secure hinges)    Yx2    Y      Yx2    Yx2     Y      Yx2    Yx2     Y             Yx2 
CCTV (color, 24/7 recording)      N     N       N      N      N       N      N      Y              Y 
Vibration Sensors                 N     Y       N      N      N       N      N      Y              Y 
Motion Sensors                    N     N       N      N      N       N      N      Y              Y 
Arm/Disarm Panel                  N     N       N      N      N       N      N      Y              Y 

SECURITY DEVICE                  19     20     21     22      23     24      25            CHART KEY 
Card Readers                      Y      Y      Y      Y      Yx2    Yx2    Yx3       Columns 1 through 25 
Magnetic Switches on Doors       Yx2    Yx8    Yx7    Yx8     Yx4    Yx4    Yx10      represent storage 
                                                                                      rooms tested. 
Lockable Door (secure hinges)    Yx3    Yx8    Yx7    Yx8     Yx4    Yx4    Yx10       
CCTV (color, 24/7 recording)      N      N      N      Y       N      Y     Yx3       Y –  Device Installed 
Vibration Sensors                 Y      N      N      N       N      N      Y        N – Device Not 
                                                                                              Installed 
Motion Sensors                    Y      Y      Y      Y       Y      Y      Y        x# ‐ Number of  
Arm/Disarm Panel                  Y      Y      Y      Y      Yx2     N     Yx3              Devices Installed




                                                      C-2 

APPENDIX D. NMAH IMPROVEMENTS TO STORAGE CONDITIONS



             BEFORE IMPROVEMENTS


                                              Equipment, housing, and housing
                                              practices in a Military History
                                              storage room were representative
                                              of substandard conditions
                                              throughout the museum’s
                                              collection storage areas. Cabinets
                                              were old, made of untreated wood,
                                              and overcrowded. Objects were
                                              stored on the floor and on top of
                                              cabinets. Several cabinets in the
                                              room were inaccessible to staff
                                              because they were blocked by other
                                              cabinets and large objects.




                                             AFTER IMPROVEMENTS 



 Between 2005 and 2011, the
 division received CCPF awards,
 which it used to significantly
 improve the storage conditions in
 the room. The funding allowed
 the division to purchase new
 compact storage cabinets and re-
 house over 6,000 military
 uniforms. The division was also
 able to properly inventory and
 document these objects. The
 Military History division hopes to
 continue these improvements in
 other storage rooms as long as
 funding is made available to them.




                                      D-1

        BEFORE IMPROVEMENTS 




                                            This Work & Industry Division
                                            collection storage room contained
                                            a significant portion of the
                                            agriculture and natural resources
                                            collections. In this room, a
                                            collection of mining lamps was
                                            stored on substandard equipment,
                                            without any housing to properly
                                            preserve the objects. There was
                                            limited access to the objects and
                                            the collection was at risk for
                                            potential damage due to these
                                            inadequate conditions.




                                                AFTER IMPROVEMENTS 





The division received CCPF awards
in 2009 and 2010 to improve the
storage conditions in this room.
The awards enabled the division to
purchase new storage cabinets and
re-house nearly 30,000 objects in
this room. For example, the
mining lamp collection is now
stored in new cabinets and housed
in individual boxes to improve
access and reduce the risk of
damage to the objects.




                                     D-2

APPENDIX E. CONTRIBUTORS TO THE REPORT

The following individuals from the Smithsonian Office of the Inspector General contributed to this
report:

Daniel Devlin, Assistant Inspector General for Audits
Joan T. Mockeridge, Supervisory Auditor
Kimm A. Richards, Senior Analyst
Steven Townsend, Auditor
Brendan Phillips, Auditor




                                                 E-1 

